Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   STATE STANDARDS FOR 

    ACCESS TO CARE IN 

  MEDICAID MANAGED CARE 





                        Suzanne Murrin

                    Deputy Inspector General 

                  for Evaluation and Inspections


                        September 2014 

                        OEI-02-11-00320 

EXECUTIVE SUMMARY: STATE STANDARDS FOR ACCESS TO CARE IN
MEDICAID MANAGED CARE
OEI-02-11-00320

WHY WE DID THIS STUDY

Examining access to care takes on heightened importance as enrollment grows in Medicaid
managed care programs. Under the Patient Protection and Affordable Care Act, States can opt to
expand Medicaid eligibility, and even States that have not expanded eligibility have seen
increases in enrollment. Most States provide some of their Medicaid services—if not all of
them—through managed care. The Office of Inspector General received a congressional request
to evaluate the adequacy of access to care for enrollees in Medicaid managed care. This report
describes the standards that States establish for access to care in their Medicaid managed care
programs and how States determine compliance with these standards. A companion report
determines the extent to which providers offer appointments to enrollees and the timeliness of
these appointments.

HOW WE DID THIS STUDY

We surveyed State Medicaid agency officials in the 33 States with comprehensive, “full risk”
Medicaid managed care and collected documentation from each State on its standards for access
to care. We also conducted structured interviews with external quality review organizations and
the Centers for Medicare & Medicaid Services (CMS).

WHAT WE FOUND

State standards for access to care vary widely. For example, standards range from
requiring 1 primary care provider for every 100 enrollees to 1 primary care provider for
every 2,500 enrollees. Additionally, standards are often not specific to certain types of providers
or to areas of the State. States have different strategies to assess compliance with access
standards, but they do not commonly use what are called “direct tests,” such as making calls to
providers. Further, most States did not identify any violations of their access standards over a
5-year period. The States that found the most violations were those that conducted direct tests of
compliance. Among the States that identified violations, most relied on corrective action plans
to address the violations; six imposed sanctions. Finally, our review found that CMS provides
limited oversight of State access standards.

WHAT WE RECOMMEND

We recommend that CMS (1) strengthen its oversight of State standards and ensure that States
develop standards for key providers, (2) strengthen its oversight of States’ methods to assess plan
compliance and ensure that States conduct direct tests of access standards, (3) improve States’
efforts to identify and address violations of access standards, and (4) provide technical assistance
and share effective practices. CMS concurred with all four of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           State standards for access to care vary widely and are often               

           not specific to certain types of providers or areas of the State ........8 

           States have different strategies to assess compliance with       

           access standards, but do not commonly use direct tests ................13 

           Most States did not identify any violations of access            

           standards over a 5-year period; States that found the most 

           violations conducted direct tests of compliance ............................15 

           Most States that identified violations relied on corrective
           action plans to address them; six States imposed sanctions ..........17 

           CMS provides limited oversight of State standards for                                       

           access to care..................................................................................17 

Conclusion and Recommendations ............................................................19 

           Agency Comments and OIG Response..........................................21 

Appendices.................................................................................................22 

           Appendix A: State Access Standards: Maximum                                              

           Distance or Time an Enrollee Should Have To Travel To

           See a Provider ................................................................................22 

           Appendix B: State Access Standards: Maximum                                             

           Number of Days an Enrollee Should Have To Wait for
           an Appointment ..............................................................................24 

           Appendix C: State Access Standards: Number of                                   

           Enrollees per Provider ...................................................................26 

           Appendix D: Agency Comments .................................................28 

Acknowledgments......................................................................................30 

                  OBJECTIVES
                  1.	 To describe State standards for access to care in Medicaid managed
                      care.
                  2.	 To assess the methods that States use to determine compliance with
                      their access standards.
                  3.	 To determine the extent to which States identify and address violations
                      of their access standards.
                  4.	 To assess the Centers for Medicare & Medicaid Services’ (CMS)
                      oversight of States’ access standards.


                  BACKGROUND
                  Medicaid is a jointly funded Federal and State health insurance program
                  that finances the delivery of medical services to more than 69 million
                  people.1 In fiscal year (FY) 2013, the Federal Government and the States
                  together spent almost $460 billion for the program.2 Each State designs
                  and administers its own Medicaid program within broad Federal
                  guidelines. Most States provide some, if not all, Medicaid services
                  through managed care, which covers nearly three-quarters of all Medicaid
                  enrollees.3
                  Examining access to care takes on heightened importance as enrollment
                  grows in Medicaid managed care programs. Under the Patient Protection
                  and Affordable Care Act, States have the option to expand eligibility for
                  their Medicaid programs.4 In addition, many States that have not




                  ____________________________________________________________
                  1
                    Congressional Budget Office, The Budget and Economic Outlook: 2014 to 2024.
                  Accessed at http://www.cbo.gov/publication/45010 on August 26, 2014.
                  2
                    The Medicaid and CHIP Payment and Access Commission (MACPAC), Report to the
                  Congress on Medicaid and CHIP, March 2014. Accessed at
                  http://www.macpac.gov/reports/2014-03-14_Macpac_Report.pdf?attredirects=0&d=1 on
                  August 26, 2014.
                  3
                    Centers for Medicare & Medicaid Services (CMS), Medicaid Managed Care
                  Enrollment Report: Summary Statistics as of July 1, 2011. Accessed at
                  http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Data-and-
                  Systems/Downloads/2011-Medicaid-MC-Enrollment-Report.pdf on April 1, 2014.
                  4
                    P.L. No. 111-148 § 2001 (Mar. 23, 2010), as amended by the Health Care and
                  Education Reconciliation Act of 2010, P.L. No. 111-152 (Mar. 30, 2010), collectively
                  referred to as “the ACA.”



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                        1
                  expanded eligibility have also seen increases in enrollment.5 As a result,
                  Medicaid is expected to provide coverage for as many as 18 million more
                  people by 2018.6
                  The Office of Inspector General (OIG) received a congressional request to
                  evaluate the adequacy of access to care for enrollees in Medicaid managed
                  care. This report describes the access standards States establish for their
                  Medicaid managed care programs and how States determine compliance
                  with these standards. A companion report determines the extent to which
                  providers offer appointments to enrollees and the timeliness of these
                  appointments.7
                  Medicaid Managed Care
                  States have the option to provide either all or some portion of their
                  Medicaid services through Medicaid managed care.8 The goal of managed
                  care is to decrease Medicaid costs while providing high-quality care to
                  enrollees. Additionally, managed care is intended to reduce the State’s
                  financial risk and allow for more predictable Medicaid costs.
                  States have different types of managed care arrangements, but the most
                  common is full-risk managed care.9 Under this arrangement, managed
                  care organizations (MCOs) assume the full financial risk for delivering a
                  comprehensive set of services. These services generally include all
                  primary, specialty, and acute medical care. States pay MCOs a fixed
                  monthly fee per enrollee (often referred to as capitation) and the MCO




                  ____________________________________________________________
                  5
                    MACPAC, Report to the Congress on Medicaid and CHIP, March 2014. Accessed at:
                  http://www.macpac.gov/reports/2014-03-14_Macpac_Report.pdf?attredirects=0&d=1 on
                  September 8, 2014, and Kaiser Family Foundation, Medicaid Enrollment: June 2013
                  Data Snapshot. Accessed at http://kff.org/report-section/medicaid-enrollment-june-2013-
                  data-snapshot-appendix-a-table-a-1-total-medicaid-enrollment-by-state/ on September 8,
                  2014.
                  6
                    Congressional Budget Office, The Budget and Economic Outlook: 2014 to 2024.
                  Accessed at http://www.cbo.gov/sites/default/files/cbofiles/attachments/45010-
                  Outlook2014_Feb.pdf on August 26, 2014.
                  7
                    OIG, Access to Care: Provider Availability in Medicaid Managed Care
                  (OEI-02-13-00670), forthcoming.
                  8
                    States may provide Medicaid services through managed care under their State plans for
                  medical assistance in accordance with Social Security Act § 1932(a) or under waivers to
                  their State plans in accordance with Social Security Act §§ 1115, 1915(a), and 1915(b).
                  9
                    Another arrangement is primary care case management, which pays providers a nominal
                  fee for providing case management services to enrollees assigned to them. States may
                  also contract with MCOs to provide a limited set of services under managed care, such as
                  dental services.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                           2
                  delivers services through a network of participating providers.10 MCOs
                  maintain listings—typically in the form of a provider directory—of all
                  participating providers in their networks who provide care to enrollees.
                  This report focuses solely on MCOs providing full-risk managed care for a
                  comprehensive set of services.
                  Federal Regulations Governing Medicaid Managed Care
                  Access Standards
                  Federal regulations require States to have a written strategy for assessing
                  and improving the quality of health care services offered by all MCOs.11
                  That strategy must include standards for access to care that all MCOs must
                  meet. These standards are intended to ensure that each MCO maintains
                  a network of providers that is sufficient to provide adequate access to
                  Medicaid services covered under the contract between the State and the
                  MCO.12 When establishing and maintaining its provider network, each
                  MCO must consider (1) the anticipated Medicaid enrollment, (2) the
                  expected utilization of services, (3) the numbers and types of providers
                  needed, (4) the numbers of network providers who are not accepting new
                  Medicaid patients, and (5) the geographic locations of providers and
                  Medicaid enrollees. Regulations also require that each MCO provide
                  timely access to care and services.13
                  Additionally, regulations require State contracts to ensure that if the MCO
                  is unable to provide necessary services to a particular enrollee with
                  providers in the managed care network, the MCO must cover these
                  services using out-of-network providers at no additional cost to the
                  enrollee.14
                  External Quality Reviews
                  Federal regulations also require States to ensure that external quality
                  reviews are conducted annually to evaluate the quality of, timeliness of,
                  and access to care furnished by MCOs to enrollees.15 States may conduct
                  these reviews themselves or contract with qualified independent entities,
                  ____________________________________________________________
                  10
                     42 CFR § 438.2. The MCO is responsible for paying for services delivered to enrollees 

                  by participating providers. In assuming the full financial risk, the MCO must cover the 

                  cost of services delivered to enrollees, even if the cost exceeds the amount of capitation 

                  payment from the State.

                  11
                     42 CFR § 438.202(a).

                  12
                     42 CFR § 438.206(b)(1)

                  13
                     42 CFR § 438.206(b)(1)(i)-(v). The regulations that we outline in this paragraph of our 

                  report are intended to ensure both the adequacy of MCO networks and timely access to 

                  care. State standards for access to care ensure that MCOs comply with both of these 

                  regulatory requirements.

                  14
                     42 CFR §§ 206(b)(4).

                  15
                     42 CFR §§ 438.310–370.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                             3
                  called external quality review organizations (EQROs). Among the
                  requirements for these reviews is that the State or EQRO must determine
                  at least once every 3 years whether each MCO is complying with the
                  State’s access standards. In addition, the State or EQRO may conduct up
                  to five optional activities, such as conducting focused studies on specific
                  aspects of quality.
                  After completing each review, the State or EQRO must produce a detailed
                  technical report with conclusions about the quality of, timeliness of, and
                  access to care that the MCO furnishes. It must also produce an assessment
                  of the MCO’s strengths and weaknesses related to quality, timeliness, and
                  access to care, as well as recommendations for improving the quality of
                  care that the MCO furnishes. Finally, it must also assess how effectively
                  the MCO has addressed any recommendations made during the previous
                  year’s review.
                  Violations
                  States must have a plan for monitoring MCO compliance and identifying
                  violations of access standards.16 If a State finds—through onsite visits,
                  reviews of complaints, or any other source—that an MCO is in violation
                  of any regulation, including regulations related to access to care, the State
                  may impose sanctions. These sanctions include imposing monetary
                  penalties, appointing temporary management for the MCO, granting
                  enrollees the right to terminate their enrollment without cause, suspending
                  new enrollment, and suspending payment for enrollment. States also have
                  the authority to impose additional sanctions under State statutes or
                  regulations.
                  CMS Oversight
                  According to Federal regulations, CMS must review and approve all
                  contracts that States enter into with MCOs, including contract provisions
                  that incorporate standards for access to care.17 In addition, each State
                  must submit to CMS its quality strategy, which includes these standards,
                  and must certify that its MCOs have complied with its requirements for
                  availability of services.18 Further, each State must submit to CMS regular
                  reports describing the implementation and effectiveness of its quality
                  strategy.19



                  ____________________________________________________________
                  16
                     42 CFR §§ 438.700–726.

                  17
                     42 CFR § 438.6(a).

                  18
                     42 CFR §§ 438.202 and 438.207(d).

                  19
                     42 CFR § 438.202(e)(2).




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                   4
                  Related Work
                  In a 2008 report, OIG found that most States use the results of external
                  quality reviews and require MCOs to make improvements to their
                  standards, processes, and performance on the basis of these reviews.20
                  However, more than half of States cited concerns about the external
                  quality review process and the quality of reports produced by this process.
                  Specifically, States were concerned that external quality review reports
                  were missing required elements and information on mandatory activities.
                  OIG recommended that CMS provide additional technical assistance and
                  written guidance to States and that it work with States to ensure that the
                  reports include complete information. CMS agreed with the
                  recommendations and stated that it had implemented both of them.

                  METHODOLOGY
                  We based this study on data from four sources: (1) a survey of State
                  Medicaid agency officials, (2) documentation and data from States that
                  contract with Medicaid MCOs, (3) structured interviews with officials
                  from EQROs, and (4) structured interviews with CMS officials.
                  Scope
                  We contacted all States to identify those that contract with Medicaid
                  MCOs. We focused solely on MCOs providing full-risk managed care for
                  a comprehensive set of services. We did not include other managed care
                  arrangements, such as partial-risk plans, as these models typically offer a
                  limited range of services under managed care.21 We identified 33 States
                  with 227 MCOs that were active from January 1, 2012, through January 1,
                  2013.22 Further, we did not include in this study plans that served only
                  specific populations, such as foster children, enrollees with long-term care
                  needs, or enrollees who are eligible for both Medicaid and Medicare.
                  Additionally, we focused our analysis on access standards for primary care
                  providers and specialists.


                  ____________________________________________________________
                  20
                     OIG, External Quality Reviews in Medicaid Managed Care (OEI-01-06-00510),
                  June 2008.
                  21
                     We excluded partial-risk managed care models, such as primary care case management
                  programs, prepaid inpatient health plans, and prepaid ambulatory health plans, as these
                  programs do not provide a full range of services under managed care. In addition, we
                  excluded comprehensive Programs for All-Inclusive Care for the Elderly, as these
                  programs provide services to both Medicaid and Medicare enrollees. Finally, we
                  included Health Insuring Organizations, which are county-level MCOs in California.
                  22
                     A given MCO may have more than one managed care plan. For the purposes of this
                  report, we use the term “plans” to refer both to MCOs and to their plans. We also refer to
                  the District of Columbia as a State.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                             5
                  Survey of State Medicaid Officials
                  We surveyed State Medicaid agency officials in the 33 States. Our
                  questions focused on each State’s standards for access to care as of
                  January 1, 2013, as well as how each State determines compliance with its
                  standards. In addition, we asked how often each State had identified plans
                  that were not meeting State standards during a 5-year period (i.e.,
                  January 1, 2008, through January 1, 2013) and what actions, if any, the
                  State took against those plans. We conducted this survey electronically in
                  April and May 2013.
                  State Documentation and Data
                  We requested documentation and supporting data from the 33 States.
                  Specifically, we asked each State for documentation of (1) its standards for
                  access to care as of January 1, 2013; (2) the methods that it uses to assess
                  plan compliance with standards; (3) any violations of standards that it
                  identified over a 5-year period (January 1, 2008, through January 1, 2013);
                  and (4) any actions that it took in response to these violations.
                  Structured Interviews with EQROs
                  In February 2014, we conducted structured interviews with officials from
                  the three largest EQROs. In 2013, these three organizations contracted
                  with 20 of the 33 States in this study to conduct all or part of their external
                  quality reviews.23 Our questions focused on how these organizations
                  conduct external quality reviews and the methods they used to determine
                  whether plans comply with State access standards.
                  Structured Interviews with CMS Officials
                  Throughout the course of the study, we conducted structured interviews
                  with CMS officials responsible for Medicaid managed care. These
                  interviews focused on CMS’s role in developing State access standards, in
                  monitoring compliance with standards, and in identifying and responding
                  to violations of standards. We also asked about CMS’s oversight of the
                  external quality reviews.
                  Analysis
                  To determine each State’s standards for access to care, we analyzed the
                  survey responses and supporting documentation submitted by States. We
                  focused our analysis on standards for access to primary care providers and
                  specialists. Our analysis did not include standards for access to other

                  ____________________________________________________________
                  23
                    CMS Center for Medicaid and Children’s Health Insurance Program Services, Findings
                  from External Quality Review Technical Reports. Accessed at
                  http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Quality-of-
                  Care/External-Quality-Review-Technical-Reports.html on August 25, 2014.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                       6
                  types of providers, such as behavioral health providers, dentists, hospitals,
                  and pharmacies.
                  Next, we identified the various methods that States use to assess
                  compliance with their access standards, either through their plans, through
                  their EQROs, or on their own. Additionally, we determined the number of
                  States that identified violations of their access standards over a 5-year
                  period and analyzed each State’s responses to these violations. As we did
                  in our analysis of the access standards, we included only violations related
                  to primary care providers and specialists; we did not include violations of
                  standards for other types of providers. We also did not include violations
                  that were unrelated to access, such as those involving billing issues. For
                  each State that identified violations, we analyzed survey responses and
                  State documentation to determine the action taken to address violations.
                  Finally, to assess CMS’s oversight of State standards, we analyzed CMS
                  officials’ responses to interview questions.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                 7
                  FINDINGS
                  State standards for access to care vary widely and are
                  often not specific to certain types of providers or areas
                  of the State
                  Medicaid regulations require that States establish access standards to
                  ensure that each plan’s provider network is adequate and meets the needs
                  of its enrollees. However, States have considerable latitude in the
                  standards they establish for their plans.
                  The three most common types of access standards are (1) standards that
                  limit the distance or amount of time enrollees should have to travel to see
                  a provider; (2) standards that require appointments to be provided within a
                  certain timeframe; and (3) standards that require a minimum number of
                  providers in relation to the number of enrollees.
                  Of the 33 States with risk-based managed care plans, 32 established
                  standards regarding provider distance or time, 31 established standards
                  regarding appointment availability, and 20 established standards regarding
                  provider-to-enrollee ratios. All but one State has at least two of these
                  types of standards. In addition, 22 States established other types of
                  standards.
                  State standards vary widely and are often not specific to providers who are
                  important to the Medicaid population, such as pediatricians, obstetricians
                  and high-demand specialists. In addition, these standards often apply to
                  all areas within a State and do not take into account differences between
                  urban and rural areas. Without standards for specific provider types or
                  areas, States may not be able to hold plans accountable for ensuring
                  adequate access to care.
                  Thirty-two States limit the distance or time enrollees should
                  have to travel to see a provider
                  Thirty-two States have standards that establish a maximum distance or
                  time enrollees should have to travel to see a provider. These standards are
                  intended to ensure that enrollees can access care with a network provider
                  within a reasonable distance from their residence.
                  All of these 32 States have standards that apply to primary care providers.
                  These standards vary from State to State. Standards for the maximum
                  distance to a primary care provider range from 5 miles (as specified by




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                8
                  2 States) to 60 miles (as specified by 3 States).24 The standards for
                  maximum travel time to see a primary care provider range from a low of
                  30 minutes to a high of 60 minutes.
                  Fourteen of the thirty-two States do not have distance or time standards
                  that apply to specialists. In the remaining 18 States, standards for
                  specialists range from 15 miles in 1 State to as many as 100 miles in
                  2 States.
                  Additionally, 17 of the 32 States do not have standards that distinguish
                  between urban and rural areas. In the remaining 15 States, the standards
                  for rural areas are often two times greater than those for urban areas. (See
                  Table 1.) For example, Hawaii requires that enrollees be able to find a
                  provider within 30 minutes in urban areas and within 60 minutes in rural
                  areas. See Appendix A for a description of States’ standards regarding
                  distance and travel time.
                  Table 1: Standards for Distance and Travel Time Among the States That
                  Distinguish Between Urban and Rural Areas, 2013
                                                                           Shortest              Longest
                                                                      Distance/Time        Distance/Time
                                                                      Among States         Among States
                       Distance to      Urban Areas                             6 Miles          30 Miles
                       Primary Care
                       Provider         Rural Areas                         15 Miles             60 Miles

                       Travel Time to   Urban Areas                       30 Minutes           30 Minutes
                       Primary Care
                       Provider         Rural Areas                       30 Minutes           60 Minutes

                   Source: OIG analysis of State data, 2014.



                  Thirty-one States require that appointments be provided within
                  a certain timeframe
                  Thirty-one States have standards that specify the maximum number of
                  days an enrollee should have to wait for an appointment. These standards
                  are intended to ensure that enrollees receive care with a network provider
                  within a reasonable timeframe.
                  All of these 31 States have standards for primary care providers.
                  However, these standards vary widely. As shown in Table 2, the
                  standards for the maximum wait time for a routine-care appointment with
                  a primary care provider range from a low of 10 days to a high of 45 days.
                  All but 2 of these 31 States also have standards for urgent-care

                  ____________________________________________________________
                  24
                    Eleven of the thirty-two States have standards that require at least two providers within
                  the specified distance or travel time.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                               9
                  appointments; these standards range from 1 to 2 days for an appointment
                  with a primary care provider.
                  Of the 31 States with appointment standards, 10 States do not specify the
                  maximum number of days an enrollee should have to wait for a routine
                  appointment with a specialist. In the remaining 21 States, the standards
                  for maximum wait time for a routine appointment with a specialist range
                  from 10 days to 60 days. See Appendix B for a description of States’
                  standards for wait times for appointments.
                  Table 2: Standards for Wait Times for Appointments, 2013

                                                               Shortest Wait Times      Longest Wait Times
                                                                     Among States           Among States

                                        Routine
                                                                          10 Days                 45 Days
                     Primary Care       Appointments
                     Providers          Urgent
                                                                                1 Day               2 Days
                                        Appointments
                                        Routine
                                                                          10 Days                  60 Days
                                        Appointments
                     Specialists
                                        Urgent
                                                                                1 Day               4 Days
                                        Appointments
                   Source: OIG analysis of State data, 2014.




                  In addition, 15 States established specific standards for prenatal
                  appointments. For example, Nebraska requires that an initial prenatal
                  appointment be provided within 14 days if the enrollee is in her first
                  trimester, 7 days for the second trimester, and 3 days for a high-risk
                  pregnancy.
                  Twenty States require a minimum number of providers based
                  on the number of enrollees
                  Twenty States have established standards that require a minimum number
                  of providers in a plan’s network in relation to the number of enrollees.
                  These standards seek to ensure that plans’ provider networks are sufficient
                  in size to serve their enrollees.
                  All of these 20 States have standards for minimum numbers of primary
                  care providers; however, as shown in Chart 1, these standards vary
                  considerably—from 1 primary care provider for every 100 enrollees to
                  1 for every 2,500 enrollees.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                10
                  Chart 1: Standards for Number of Enrollees per Primary Care Provider,
                  by Number of States, 2013



                                                                  9 States


                                                                                        7 States
                      Number of  States



                                          4 States




                                          1–599                  600–1999            2000 or more

                                              Number of Enrollees per Primary Care Provider
                  Source: OIG analysis of State data, 2014.


                  Eight of these twenty States have different standards for minimum
                  numbers of physician and nonphysician primary care providers. For
                  example, New York requires 1 primary care physician per 1,500 enrollees
                  and 1 certified nurse practitioner per 1,000 enrollees. In addition, five
                  States have standards for specific types of primary care providers, such as
                  obstetricians and pediatricians. For example, Illinois has standards for
                  obstetricians (1 obstetrician per 300 pregnant enrollees) and women’s
                  health providers (1 women’s health provider per 2,000 female enrollees).
                  Massachusetts has a standard for pediatricians (1 pediatrician per
                  200 child enrollees).
                  Only 4 of the 20 States require plans to have a minimum number of
                  specialists in relation to their number of enrollees. Two of these States
                  have standards that apply to all specialists—Nevada requires 1 specialist
                  for every 1,500 enrollees, and Colorado requires 1 specialist for every
                  2,000 enrollees. The remaining two States have standards for more than
                  15 different types of specialists. For example, Wisconsin’s standards for
                  minimum numbers of specialists range from 1 cardiologist per
                  1,000 enrollees to 1 urologist per 3,000 enrollees. Tennessee’s standards
                  for minimum numbers of specialists range from 1 orthopedic surgeon per
                  15,000 enrollees to 1 allergist/immunologist per 100,000 enrollees. See
                  Appendix C for a description of States’ standards for provider-to-enrollee
                  ratios.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                       11
                  Twenty-two States have other standards for access to care
                  In addition to having the three most common types of standards, 22 States
                  also have other types of standards for access to care. These standards vary
                  and commonly include the following:
                       	 In-office wait time: Eleven States have standards that limit the
                          amount of time that an enrollee may wait in a provider’s office
                          before being seen by a provider. For example, New Jersey
                          specifies that an enrollee must be seen by a primary care provider
                          within 45 minutes of the scheduled appointment time. To
                          minimize in-office wait time, two States have standards that limit
                          the number of appointments a primary care provider can schedule
                          in an hour. For example, Illinois allows no more than six
                          scheduled appointments per hour for each primary care provider.
                       	 Access to multilingual care: Six States have standards that require
                          plans to provide enrollees with access to interpreter services or
                          multilingual providers. For example, the District of Columbia
                          requires its plans to provide non-English-speaking enrollees with
                          access to free interpreters during appointments.
                       	 Twenty-four-hour telephone access to providers: Six States have
                          standards that require enrollees to have telephone access to
                          providers 24 hours a day, 7 days a week. For example, Indiana
                          requires that enrollees have 24-hour access to either their primary
                          care provider or the provider’s clinical staff through a tollfree
                          telephone number.
                       	 Access-related performance measures: Although a number of
                          States provide incentive payments based on a plan’s success in
                          meeting key performance measures related to access, one State—
                          Ohio—has incorporated these performance measures into its
                          access standards.25 For example, the State requires that 83 percent
                          of enrollees 1 to 19 years old have had a primary care visit within
                          the previous year.




                  ____________________________________________________________
                  25
                    These measures are based on nationally recognized performance measures found in the
                  Healthcare Effectiveness Data and Information Set (HEDIS), which was developed by
                  the National Committee for Quality Assurance. HEDIS measures allow for assessment
                  and comparison of health plans across many dimensions of care and service, including
                  access. Many States use HEDIS measures to assess plan performance but do not include
                  them as part of their State standards for access.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                        12
                  States have different strategies to assess compliance
                  with access standards, but do not commonly use
                  direct tests
                  All States have developed strategies for how they assess plan compliance
                  with access standards. These strategies include reviews of reports from
                  plans and external quality reviews. In some cases, States conduct their
                  own tests of plan compliance.
                  While States use different strategies, they do not often use direct tests.
                  Direct tests seek to reliably measure whether plans comply with access
                  standards. These tests can also determine the accuracy of information
                  maintained by plans. Such tests are important because States have
                  established standards that rely heavily on provider information from plans
                  and this information is often inaccurate or out of date.26 Direct tests
                  commonly include telephone calls to providers that either assess
                  compliance with a specific standard, such as wait times for appointments,
                  or assess the accuracy of provider information, such as whether a provider
                  is participating in a plan.
                  All States rely on reports from managed care plans, but these
                  reports vary widely
                  All States rely on managed care plans to help assess whether plans comply
                  with State access standards. However, States differ widely in what they
                  require their plans to report. Such reports range from an annual
                  “self-attestation” that a plan is complying with standards to direct tests of
                  plan compliance.
                  For example, several States rely on reports from plans that include
                  numbers of network providers, but there was no evidence that the plan had
                  validated the accuracy of those numbers. In some cases, these reports do
                  not even include the network providers’ names or contact information. In
                  contrast, other States require their plans to conduct direct tests, including
                  making calls to their own network providers.
                  States also use external quality reviews, but these reviews
                  often do not include direct tests of compliance
                  Federal regulations require States with Medicaid managed care programs
                  to provide for an external, independent review of their plans. These
                  reviews must determine plan compliance with access standards at least
                  once every 3 years. Most States contract with an EQRO to conduct all or

                  ____________________________________________________________
                  26
                    OIG, Access to Care: Provider Availability in Medicaid Managed Care
                  (OEI-02-13-00670), forthcoming.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                13
                  part of these reviews. In these contracts, States specify the methods
                  EQROs should use to determine plan compliance.
                  The methods that EQROs commonly use to assess plan compliance
                  include reviewing plan policies and procedures and conducting onsite
                  interviews of plan personnel. In addition, EQROs are often contracted by
                  States to evaluate results from enrollee satisfaction surveys and to evaluate
                  plans’ performance on key health care measures, like how many children
                  receive immunizations on a timely basis.27 One EQRO official noted that
                  these methods can provide a sense of how a plan performs with regard to
                  access but do not directly measure compliance with access standards.
                  EQROs also use information from plans—such as provider network
                  lists—to assess compliance, but officials cited variation in the quality of
                  such information as a concern.
                  EQROs less commonly use direct tests to determine plan compliance.
                  EQRO officials explained that States often do not contract with them for
                  such tests because they can be resource intensive. Officials noted,
                  however, that such tests are particularly effective for assessing
                  compliance. One State, for example, contracts with its EQRO to conduct
                  data validation surveys to determine the accuracy of the provider data that
                  each plan maintains.
                  Eight States report conducting their own direct tests of plan
                  compliance
                  Only eight States report conducting their own direct tests to assess
                  whether plans comply with access standards. For example, several States
                  conduct “secret shopper” calls during which the caller pretends to be a
                  patient. These calls are used to confirm specific information about
                  providers, such as whether they are accepting new patients or how far in
                  advance they can schedule appointments. States also report contacting
                  providers to verify plan information. For example, one State conducts
                  provider surveys to ensure that providers are listed correctly in the
                  directory and are participating in the plan.
                  In addition to assessing compliance with the access standards, calls to
                  providers can also help States identify other barriers to access. One State
                  Medicaid official noted that there were barriers to access that would never
                  have been discovered without conducting secret-shopper calls. For
                  ____________________________________________________________
                  27
                    Enrollee satisfaction is commonly measured through a national survey instrument, the
                  Consumer Assessment of Healthcare Providers and Systems (CAHPS). Key health care
                  measures are commonly collected through HEDIS. Although CAHPS and HEDIS are
                  both standardized tools, the information collected through the two can vary across States
                  or plans.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                             14
                  example, some providers request and review enrollees’ medical records
                  prior to making appointments.

                  Most States did not identify any violations of access
                  standards over a 5-year period; States that found the
                  most violations conducted direct tests of compliance
                  Only 11 of the 33 States with risk-based managed care plans identified at
                  least one violation of their access standards between January 1, 2008, and
                  January 1, 2013.28 See Table 3 below. The remaining States found no
                  violations. When States fail to identify violations of their access
                  standards, they are unable to correct problems and improve access to care
                  for enrollees.
                  Table 3: Number of Violations of Access Standards, 2008 to 2013*

                                                                            Number of               Percentage of All
                    State                                         Violations Reported            Violations Reported
                                                                        for 2008–2013                  for 2008–2013

                    Ohio                                                                76                      32%
                    New York                                                            63                      27%
                    Georgia                                                             41                      18%
                    California                                                          14                       6%
                    Florida                                                             11                       5%
                    Texas                                                                    8                   3%
                    West Virginia                                                            7                   3%
                    District of Columbia                                                     5                   2%
                    Maryland                                                                 5                   2%
                    Massachusetts                                                            2                   1%
                    Washington                                                               2                   1%
                        Total                                                          234                     100%

                   *Includes violations related to primary care providers and specialists.
                   Source: OIG analysis of State data, 2014.



                  When violations were found, they most commonly involved problems
                  with meeting standards for distance and time, for appointment availability,
                  and for provider-to-enrollee ratios. Many of these violations also involved
                  plans that had inaccurate provider information, such as wrong addresses or
                  incorrect provider participation data. The accuracy of provider
                  information is important because State standards rely heavily on this
                  ____________________________________________________________
                  28
                    This analysis includes violations related to primary care providers and specialists. It
                  does not include violations related to other types of providers, such as behavioral health
                  providers, dentists, hospitals, and pharmacists.



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                           15
                  information. For example, to assess compliance with a State’s distance
                  standard, a plan may submit information to the State about where its
                  network providers are located in relation to its enrollees. If this provider
                  information is inaccurate (e.g., because some providers are not at the
                  reported addresses or do not participate in the plan), then States may fail to
                  identify violations and correct problems regarding access to care.

                    Examples of Violations and Their Effects on Enrollees’
                    Access to Care

                    One State found that in one of its plans, there were no
                    participating urologists within 75 miles of an enrollee and that the
                    plan did not provide appropriate referrals or an explanation of how
                    the enrollee could receive care.

                    Another State found that for one of its plans, appointments for
                    enrollees could not be made with 45 percent of the primary care
                    providers listed as participating in a specific region.

                    Another State found significant deficiencies in the number of
                    specialists participating in 1 of its plans, identifying 30 counties in
                    which enrollees lacked access to certain types of specialists.

                  Source: OIG analysis of State data, 2014.



                  Just three States—Ohio, New York, and Georgia—identified more than
                  three-quarters of all violations. In these three States, the State or its
                  EQRO conducted direct tests of plan compliance, including making calls
                  to providers. For example, Ohio contracted with its EQRO for the EQRO
                  to call providers to validate plan provider information. In addition, the
                  State made calls to each plan’s enrollee-services department to assess
                  whether plans were providing timely assistance to enrollees.
                  Similarly, New York contracted with its EQRO to conduct secret-shopper
                  calls to providers to measure their access and availability as well as the
                  accuracy of their information in provider directories. New York used the
                  results from these surveys to determine the percentage of each plan’s
                  providers that were actually participating in the plan and accepting new
                  enrollees. The State then cited each plan that had a provider-participation
                  rate below 75 percent with a violation.
                  In Georgia, the State identified violations during quarterly secret-shopper
                  calls to providers to determine appointment wait times and confirm the
                  accuracy of information included in plan reports and directories.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                   16
                  Most States that identified violations relied on
                  corrective action plans to address them; six States
                  imposed sanctions
                  The 11 States that identified violations most commonly relied on
                  corrective action plans (CAPs) to address them. States either issue CAPs
                  to plans or approve CAPs developed by plans. These CAPs, which are
                  used for both new and repeat violations of standards, outline the steps
                  necessary to make plans compliant. To ensure that plans implement
                  CAPs, States use (1) requirements in their contracts with plans,
                  (2) conference calls with plan staff, and (3) site visits to plan offices.
                  Some States contract with their EQROs to monitor completion of CAPs.
                  Six of the eleven States that identified violations reported imposing
                  sanctions in response to violations—in some cases, in addition to CAPs.
                  These sanctions include issuing monetary penalties and blocking new
                  enrollees from signing up with plans. For example, after identifying one
                  plan that failed to resolve access deficiencies, one State blocked new
                  enrollment to that plan and transferred its existing enrollees to other plans
                  in the State.

                  CMS provides limited oversight of State standards for
                  access to care
                  Federal regulations require CMS to review and approve all State contracts
                  with MCOs, including provisions that incorporate access standards. CMS
                  uses a checklist to confirm that States have access standards, but officials
                  reported that they do not assess whether these standards are adequate to
                  ensure access to care. CMS officials further explained that setting the
                  standards is primarily a State responsibility, but given how much these
                  standards vary, there would be some utility in having more uniformity
                  among State standards. One EQRO official also recommended that
                  increased uniformity among State standards could improve access.
                  Another EQRO official said that CMS could require States to have
                  standards for certain types of providers, such as pediatricians,
                  obstetricians, or high-demand specialists. This would enable States to
                  maintain flexibility in setting their standards, but would help ensure access
                  to key provider types that are essential to serving the Medicaid population.
                  CMS officials also reported that they generally do not assess the adequacy
                  of States’ methods for monitoring compliance with standards. However,
                  CMS does play a role in the oversight of external quality reviews. For
                  example, CMS has developed the protocols that States and EQROs use to
                  conduct the reviews. These protocols do not require States or EQROs to
                  use direct tests to assess plan compliance.


State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                  17
                  Lastly, CMS officials reported that until recently, they have not kept track
                  of violations identified by States or EQROs, nor have they monitored State
                  responses to such violations. Officials reported that in 2013 they began
                  tracking violations identified in the technical reports that were prepared as
                  part of the external quality reviews, and that they are in the process of
                  hiring a contractor to evaluate the external quality review process and
                  make recommendations for improvement.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                18
                  CONCLUSION AND RECOMMENDATIONS
                  Access to health care services for enrollees in Medicaid managed care is
                  essential. Without adequate access, enrollees would not receive the
                  preventative care and treatment necessary to achieve positive health
                  outcomes and improved quality of life. To ensure that Medicaid managed
                  care enrollees have adequate access, States must have standards for access
                  to care. They must also determine whether managed care plans comply
                  with these standards.
                  Our review found that State access standards vary widely. For example,
                  standards range from requiring 1 primary care provider for
                  every 100 enrollees to 1 primary care provider for every 2,500 enrollees.
                  Additionally, they are often not specific to certain types of providers or
                  areas of the State. Without standards for specific providers or areas, States
                  may not be able to hold plans accountable for ensuring adequate access to
                  care. In addition, States have different strategies to assess compliance
                  with standards, but do not commonly use direct tests, such as calls to
                  providers. Further, most States did not identify any violations of their
                  access standards over a 5-year period; States that found the most
                  violations conducted direct tests. When States fail to identify violations of
                  their access standards, they do not correct problems and improve access to
                  care for enrollees. Among the States that identified violations, most relied
                  on CAPs to address the violations; six imposed sanctions. Finally, our
                  review found that CMS provides limited oversight of State standards for
                  access to care.
                  These findings show that CMS and States need to do more to ensure that
                  all States have adequate access standards and strategies for assessing
                  compliance. This will help to ensure that enrollees in Medicaid managed
                  care have access to the services they need. With Medicaid expanding and
                  enrollment expected to reach as many as 87 million people by 2018,
                  ensuring adequate access to care is increasingly important.
                  We recommend that CMS:
                  Strengthen its oversight of State standards and ensure that
                  States develop standards for key providers
                  CMS should strengthen its oversight of State standards and work with
                  States to ensure that they have adequate standards in place to meet the
                  needs of their Medicaid managed care populations.
                  As a part of this effort, CMS should issue guidance to strengthen State
                  standards. In addition, CMS should require States to develop standards
                  for a core set of providers that are important to the Medicaid managed care

State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                19
                  population, including primary care providers, pediatricians, obstetricians
                  and other high-demand specialists. It should also work with States to
                  ensure that standards are specific to urban and rural areas when
                  appropriate.
                  Strengthen its oversight of States’ methods to assess plan
                  compliance and ensure that States conduct direct tests of
                  access standards
                  CMS should strengthen its oversight of States’ methods to assess plan
                  compliance with access standards. CMS should work with States to
                  ensure that these methods accurately determine plan compliance.
                  As part of this effort, CMS should require that States or their EQROs
                  conduct direct tests of their access standards. These tests could include
                  calls to providers or other methods to determine compliance with
                  standards or to validate the plan data used to determine compliance. CMS
                  should revise its protocols for external quality reviews to instruct States or
                  EQROs to conduct these tests.
                  Improve States’ efforts to identify and address violations of
                  access standards
                  Given how few States identified violations of access standards over a
                  5-year period, CMS should work with States to improve how States
                  identify and address violations of access standards. Additionally, CMS
                  should use the information it has started to collect to track violations and
                  ensure that States are addressing them appropriately.
                  Provide technical assistance and share effective practices
                  CMS should provide technical assistance to States to ensure the adequacy
                  of their access standards, their methods for testing them, and their methods
                  for identifying and addressing violations. CMS should share effective
                  practices with all States to improve access for Medicaid managed care
                  enrollees.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                    20
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all four of our recommendations. Regarding our
                  recommendation for it to strengthen its oversight of State standards, CMS
                  concurred and stated that it is considering options to set forth expectations
                  for network access standards through additional guidance to States.
                  Regarding our recommendation for it to strengthen its oversight of States’
                  methods to assess plan compliance and to ensure that States conduct direct
                  tests of access standards, CMS concurred, noting that it will engage
                  collaboratively with States to identify best practices for testing plan
                  compliance rather than endorse a particular method.
                  Regarding our recommendation for it to improve States’ efforts to identify
                  and address violations of access standards, CMS concurred and stated that
                  it believes that existing regulations provide an adequate array of remedies
                  for States to pursue for plans’ noncompliance with access standards. CMS
                  added that it believes that flexibility should remain with the States to
                  determine which compliance actions should be applied. CMS also stated
                  that when it becomes aware of potential issues, it shares that information
                  with the appropriate State and monitors—on an ongoing basis—the State’s
                  actions to remedy the situation. Regarding our recommendation for it to
                  provide technical assistance and share effective practices, CMS concurred
                  and noted that it has been providing technical assistance to States through
                  existing contract resources. CMS added that it would continue such
                  activities in the future as resources allow.
                  We support CMS’ efforts to provide effective oversight of Medicaid
                  managed care, and we encourage it to continue to work with States to
                  ensure access to care for managed care enrollees. In its comments, CMS
                  did not address whether it intends to issue guidance about requiring States
                  to develop standards for core provider types and to conduct direct tests of
                  their access standards. OIG requests that CMS provide in its Final
                  Management Decision details on how it intends to address these issues.
                  For the full text of CMS’s comments, see Appendix D.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                21
APPENDIX A
State Access Standards: Maximum Distance or Time an Enrollee Should
Have to Travel to See a Provider

Table A-1: Distance and Time Standards by State, 2013
                                Standards for Distance or Time Between Providers and Enrollees’ Residences
 State
                                    Primary Care Providers                                              Specialists
                        Within 5 miles for 95 percent of enrollees
                        residing within boundary of metropolitan
 Arizona                Phoenix or Tucson                                          No standard
                        (There is no standard for enrollees outside of
                        these two areas)
 California             Within 30 minutes or 10 miles                              No standard

 Colorado               Within 30 minutes or 30 miles                              Within 30 minutes or 30 miles

 Delaware               Within 30 minutes or 30 miles                              Within 100 miles

 District of            Within 30 minutes’ travel time via public
                                                                                   No standard
 Columbia               transportation or within 5 miles

 Florida                Within 30 minutes                                          Within 60 minutes

                        Urban: Within 8 miles*                                     Urban: Within 30 minutes or 30 miles
 Georgia
                        Rural: Within 15 miles*                                    Rural: Within 45 minutes or 45 miles

                        Urban: Within 30 minutes                                   Urban: Within 30 minutes
 Hawaii
                        Rural: Within 60 minutes                                   Rural: Within 60 minutes

 Illinois               No standard                                                No standard

                                                                                   Within 60 miles for selected specialists*;
 Indiana                Within 30 miles
                                                                                   within 90 miles for other specialists

                        Urban: Within 30 minutes or 30 miles
 Kentucky                                                                          No standard
                        Rural: Within 45 minutes or 45 miles

                        Urban: Within 30 minutes or 10 miles
 Maryland                                                                          No standard
                        Rural: Within 30 minutes or 30 miles

 Massachusetts          Within 30 minutes or 15 miles*                             No standard

 Michigan               Within 30 minutes or 30 miles                              No standard

 Minnesota              Within 30 minutes or 30 miles                              Within 60 minutes or 60 miles

                        Urban: Within 30 minutes or 30 miles *
 Mississippi                                                                       No standard
                        Rural: Within 60 minutes or 60 miles*

                                                                                   Urban: Within 15 miles for general surgeons;
                                                   †                               within 25 miles for other selected specialists
                        Urban: Within 10 miles
                                               †                                   Basic: Within 30 miles for general surgeons;
 Missouri               Basic: Within 20 miles
                                               †                                   within 50 miles for other selected specialists
                        Rural: Within 30 miles
                                                                                   Rural: Within 60 miles for general surgeons;
                                                                                   within 100 miles for other selected specialists
* Denotes standards that require at least two providers within the specified distance or travel time.
†
  Denotes States that have additional standards for specific types of primary care providers, such as obstetricians.

                                                                                                                   continued on next page



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                           22
 Table A-1: Distance and Time Standards by State, 2013 (continued)
                                Standards for Distance or Time Between Providers and Enrollees’ Residences
 State
                                     Primary Care Providers                                             Specialists
                                                    †
                        Urban: Within 30 miles*
                                               †
 Nebraska               Rural: Within 45 miles                                     Within 90 miles for high-demand specialists
                                                  †
                        Frontier: Within 60 miles

 Nevada                 Within 25 miles                                            No standard

                        Urban: Within 6 miles for 90 percent of
                                   †                                               Within 60 minutes or 45 miles for 90 percent of
                        enrollees*
 New Jersey                                                                        the enrollees in each county or approved
                        Rural: Within 15 miles for 85 percent of
                                   †                                               subcounty service area
                        enrollees*

                        Urban: Within 30 miles for 90 percent of
                        enrollees
                        Rural: Within 45 miles for 90 percent of
 New Mexico                                                                        No standard
                        enrollees
                        Frontier: Within 60 miles for 90 percent of
                        enrollees

                        Urban: Within 30 minutes
 New York                                                                          Within 30 minutes or 30 miles
                        Rural: Within 30 minutes or 30 miles

                        If medically necessary care is not within                  If medically necessary care is not within
 Ohio
                        30 miles, MCO must provide transportation                  30 miles, MCO must provide transportation

                                                                                   Urban: Within 30 minutes for selected
                        Urban: Within 30 minutes*                                  specialists*
 Pennsylvania
                        Rural: Within 60 minutes*                                  Rural: Within 60 minutes for selected
                                                                                   specialists*

 Rhode Island           Standard varies by plan*                                   Standard varies by plan*

 South Carolina         Within 30 miles                                            No standard

                        Urban: Within 30 minutes or 20 miles                       Within 60 miles for 75 percent of enrollees;
 Tennessee
                        Rural: Within 30 minutes or 30 miles                       within 90 miles for all enrollees

 Texas                  Within 30 miles                                            Within 75 miles

 Utah                   Within 40 minutes or 40 miles*                             No standard

                                                                     †
                        Urban: Within 30 minutes or 15 miles*                      Urban: Within 30 miles
 Virginia                                                     †
                        Rural: Within 60 minutes or 30 miles*                      Rural: Within 60 miles

                        Urban: Within 10 miles for 90 percent of
                        enrollees in the service area*
 Washington                                                                        No standard
                        Rural: Within 25 miles for 90 percent of
                        enrollees in the service area

                                                                                   Within 30 minutes for high-demand specialists*;
 West Virginia          Within 30 minutes*
                                                                                   within 60 minutes for other specialists

                        Urban: Within 10 miles for enrollees residing
                        in Milwaukee, Racine, or Kenosha
 Wisconsin                                                                         No standard
                        Rural: Within 20 miles for enrollees residing in
                        the remainder of the service areas

* Denotes standards that require at least two providers within the specified distance or travel time.
†
  Denotes States that have additional standards for specific types of primary care providers, such as obstetricians.

Source: OIG analysis of State data, 2014.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                        23
APPENDIX B
State Access Standards: Maximum Number of Days an Enrollee Should
Have to Wait for an Appointment

Table B-1: Appointment Standards by State, 2013
                                                      Maximum Appointment Wait Times (Days)

 State                                      Primary Care                                    Specialist

                                 Routine Care              Urgent Care       Routine Care                Urgent Care

 Arizona                                        21                       2                    45                        3

 California                                     10*                      2                   15*                        4

 Colorado                                       30                       2         No standard              No standard

 Delaware                                       21                       2                    21                        2

 District of Columbia                           30             No standard                    30            No standard

 Florida                                        30                       1                    30                        1

 Georgia                                        14                       1                    30            No standard

 Hawaii                                         21                       1                    28                        1

 Illinois                                       35                       1         No standard                          1

 Indiana                              No standard              No standard         No standard              No standard

 Kentucky                                       30                       2                    30                        2

 Maryland                                       30                       2                    30                        2

 Massachusetts                                  45                       2                    60                        2

 Michigan                             No standard              No standard         No standard              No standard

 Minnesota                                      45                       1         No standard              No standard

 Mississippi                                    30                       1         No standard              No standard

 Missouri                                       30                       1                    30                        1

 Nebraska                                       14*                      2                   30*                        3

 Nevada                                         14                       2                    30                        3

 New Jersey                                     28                       1                    28                        1

 New Mexico                                     30                       1                    21            No standard

 New York                                       28                       1                    42                        1

 Ohio                                           42                       1         No standard              No standard

                                                                                15* for selected
 Pennsylvania                                   10*                      1           specialists;                       1
                                                                                  10* for others
*Denotes business days
                                                                                                    Continued on next page




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                            24
Table B-1: Appointment Standards by State, 2013 (continued)
                                                                     Appointment Wait Times (Days)

 State                                                 Primary Care                                            Specialist

                                         Routine Care                 Urgent Care               Routine Care              Urgent Care

 Rhode Island                                              30                           1                       30                         1

 South Carolina                                            42                           2            No standard              No standard

 Tennessee                                                 21                           2                       30                         2

 Texas                                                     14                           1                       30                         1

 Utah                                                      30                           2                       30                         2

 Virginia                                                  30                           1            No standard                           1

 Washington                                                30                           2            No standard              No standard

 West Virginia                                             21                           2            No standard                           2

 Wisconsin                                                 14              No standard               No standard              No standard

* Denotes business days.

Routine care includes nonurgent well-care visits; urgent care includes visits for conditions that require more immediate attention, but do not
constitute an emergency.

Standards that do not specify which type(s) of provider(s) they apply to are counted as applying both to primary care providers and to
specialists.


Source: OIG analysis of State data, 2014. 





State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                               25
APPENDIX C
State Access Standards: Number of Enrollees per Provider

Table C-1: Provider-to-Enrollee Standards by State, 2013

                                                 Number of Enrollees per
 State                                                                                          Number of Enrollees per Specialist
                                                  Primary Care Provider

 Arizona                                No standard                                          No standard

 California                             2,000 enrollees                                      No standard**

 Colorado                               2,000 enrollees                                      2,000 enrollees

 Delaware                               2,500 enrollees                                      No standard

 District of Columbia                   No standard                                          No standard

 Florida                                1,500 enrollees                                      No standard

 Georgia                                No standard                                          No standard

 Hawaii                                 300 enrollees                                        No standard

 Illinois                               2,000 enrollees*                                     No standard**

 Indiana                                No standard                                          No standard

 Kentucky                               1,500 enrollees                                      No standard

                                        2,000 adult enrollees
 Maryland                                                                                    No standard**
                                        1,500 enrollees under 21

 Massachusetts                          200 enrollees*                                       No standard

 Michigan                               750 enrollees                                        No standard

 Minnesota                              No standard                                          No standard

 Mississippi                            No standard                                          No standard

 Missouri                               No standard                                          No standard

 Nebraska                               No standard                                          No standard

 Nevada                                 1,500 enrollees                                      1,500 enrollees

 New Jersey                             2,000 enrollees*                                     No standard**

 New Mexico                             1,500 enrollees                                      No standard

 New York                               1,500 enrollees                                      No standard

 Ohio                                   No standard                                          No standard

 Pennsylvania                           1,000 enrollees                                      No standard

 Rhode Island                           1,500 enrollees                                      No standard

 South Carolina                         No standard                                          No standard

 * Denotes States that have additional standards for specific types of primary care providers, such as obstetricians and pediatricians.
 ** Denotes States that have additional standards that apply to all providers, but are not specific to specialists (i.e., 1 provider per
 2,000 enrollees).
                                                                                                                           continued on next page



State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                                 26
Table C-1: Provider-to-Enrollee Standards by State, 2013 (continued)
                                                 Number of Enrollees per
 State                                                                                        Number of Enrollees per Specialist
                                                  Primary Care Provider

 Tennessee                             2,500 enrollees                                      Standard varies by specialty type

 Texas                                 No standard                                          No standard

 Utah                                  No standard                                          No standard

 Virginia                              1,500 enrollees*                                     No standard

 Washington                            No standard                                          No standard

 West Virginia                         500 enrollees*                                       No standard

 Wisconsin                             100 enrollees                                        Standard varies by specialty type

* Denotes States that have additional standards for specific types of primary care providers, such as obstetricians and pediatricians.
** Denotes States that have additional standards that apply to all providers, but are not specific to specialists (i.e., 1 provider per
2,000 enrollees).

Source: OIG analysis of State data, 2014.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                             27
APPENDIX D
Agency Comments




(,       ~
 ··"""4""""'..,       	
                    DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


     •...,~ 	                                                                              Administrator
                                                                                           Washington, DC 20201




              DATE:            AUG 15 2014

              TO: 	             Daniel R. Levinson 

                                lnspectorAGeneral 


              FROM: 	           M~    Trienrrer 

                                Admmistratol\ 


              SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "State Standards for Access to Care
                         in Medicaid Managed Care" (OEI-02-11-00320)


              Thank you for the opportunity to review and comment on the above-referenced OIG draft report.
              The purpose of this report was to survey states with comprehensive, risk-based managed care to
              collect documentation and data on managed care program access standards.

              Managed care has become an important delivery system in the Medicaid program. As many of
              our beneficiaries are enrolled in managed care plans, the Centers for Medicare & Medicaid
              Services (CMS) takes seriously our role in ensuring that states are providing effective oversight
              of these plans.

              OIG Recommendation

              The OIG recommends that CMS strengthen its oversight of State standards and ensure that States
              develop standards for key providers.

              CMS Response

                  The CMS concurs generally that its oversight of state network access standards for managed care
                  networks is important to the effective delivery of Medicaid services to enrollees. We are
                  considering options to set forth CMS' expectations for network access standards and expect to
                  address this issue through the development of additional guidance to states.

                  OIG Recommendation

                  The 010 recommends that CMS strengthen its oversight of States' methods to assess plan
                  compliance and ensure that States conduct direct tests of access standards.

                  CMS Response

                  The CMS concurs generally that it is important for states to document ongoing oversight of
                  health plan compliance with provider access standards. CMS will engage collaboratively with




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                                         28
             Page 2- Daniel R. Levinson



             states to identify best practices for testing health plan compliance with provider access standards,
             rather than endorse a particular method, as the assessment of provider access is best conducted
             through multi-pronged strategies.

             OIG Recommendation

             The OIG recommends that CMS improve States' efforts to identify and address violations of
             access standards.

             CMS Response

             The CMS concurs generally that states' ongoing oversight of health plan compliance with
             provider access standards and remediation of identified violations are key to the operation of an
             effective Medicaid managed care program. To that end, CMS believes that existing regulations
             in subpart I of 42 CFR part 438 provide an adequate array of remedies for states to pursue for
             health plan non-compliance with access standards and that flexibility should remain with the
             states to determine which compliance actions should be applied to its contractors. When CMS
             becomes aware of potential issues with a health plan's network, we share that information with
             the state and monitor the state's actions to remedy the situation on an ongoing basis. CMS will
             continue to track compliance information from external quality review organizations' reports and
             contract review to determine if expectations for oversight and compliance actions are
             appropriate.

             OIG Recommendation

             The OIG recommends that CMS provide technical assistance and share effective practices.

             CMS Response

             We concur. The CMS has been providing technical assistance to states that seek information on
             provider access standards through existing contract resources. As resources allow in the future,
             we would continue such activities.

              The CMS thanks OIG for the work done on this issue and looks forward to working with OIG in
              the future.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)                                       29
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional
                  office, and Nancy Harrison and Meridith Seife, Deputy Regional
                  Inspectors General.
                  Vincent Greiber served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the New York regional office who
                  conducted the study include Marissa Baron, Marisa Beatley, and
                  Hailey Davis. Office of Evaluation and Inspections staff who provided
                  support include Janna Sayer from the Atlanta regional office and
                  Deborah Cosimo from the Dallas regional office. Central office staff who
                  provided support include Kevin Farber, Kevin Manley, and
                  Christine Moritz.




State Standards for Access to Care in Medicaid Managed Care (OEI-02-11-00320)             30
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
